L—>
I

OCKLE

2311 Douglas Street NF . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 20-82 & 20-96

KANE COUNTY, UTAH, AND THE STATE OF UTAH,
Petitioners,
v.

UNITED STATES OF AMERICA,
SOUTHERN UTAH WILDERNESS ALLIANCE,
AND THE WILDERNESS SOCIETY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2527 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Ch,
RENEE J. GOSS 9. Qudraw- ‘
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40296
